ZUCKERMAN
SPAEDER

December 19, 2019
VIA FEDERAL EXPRESS

Scott S. Harris

Clerk

Supreme Court of the United States
One First Street, N.E.

Washington, D.C. 20543

Re: Ameer Siddiqui v. NetJets Aviation, Inc.
Case No. 19-500

Dear Mr. Harris:

Nathan Berman
Zuckerman Spaeder LLP
nberman@zuckerman.com
813.221.1010

The Respondent, NetJets Aviation, Inc., respectfully requests a 30-day extension of time
in which to file its response to the petition for certiorari in this case. The current due date is
January 16, 2020, and a 30-day extension would create a new due date of February 15, 2020.
Petitioner’s Counsel has consented to the requested 30-day extension.

This request is made in good faith and not for the purpose of delay; the extension is
necessary so we may provide a thorough response to the petition. My current schedule, which
includes a previously planned out-of-town trip during the holidays, necessitates a 30-day
extension. Among my other obligations, I have pleading deadlines in State of Florida v, Purdue
Pharma L.P. et al. (Fla. 6th Jud. Cir. 2018-CA-1438) and Florida Health Sciences Center, Inc. et

al. v. Richard Sackler , et al. (S.D.Fla. No. 0:19-CV-62992).
Thank you for your consideration of this request.

Sincerély,

Nathan M. Berman

ce: Christina Jump
Counsel for Petitioner

101 E. KENNEDY BLVD., SUITE 1200, TAMPA, FL 33602-5838 | T 813.221.1010 | F 813.223.7961

ZUCKERMAN SPAEDER LLP | WASHINGTON, DC | NEW YORK | TAMPA | BALTIMORE

6720873.2
